U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

April 1, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Vaughn Lewis v. United States of America,
S.Ct. No. 20-7387

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 1,
2021, and placed on the docket on March 9, 2021. The government’s response is due on April 8,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 10, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7387
LEWIS, VAUGHN
USA

INGA S. BERNSTEIN
ZALKIND, RODRIGUEZ, LUNT & DUNCAN
65A ATLANTIC AVENUE
BOSTON, MA 02110
617-742-6020

